<html>
<title> - [H.A.S.C. No. 114-67] ADVANCING THE SCIENCE AND ACCEPTANCE OF AUTONOMY FOR FUTURE DEFENSE SYSTEMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                                     
 
                         [H.A.S.C. No. 114-67]

                       ADVANCING THE SCIENCE AND

                       ACCEPTANCE OF AUTONOMY FOR

                         FUTURE DEFENSE SYSTEMS

                               __________

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 19, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                     



                               ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-823                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




                                     
  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           JOAQUIN CASTRO, Texas
RYAN K. ZINKE, Montana               MARC A. VEASEY, Texas
TRENT FRANKS, Arizona, Vice Chair    DONALD NORCROSS, New Jersey
DOUG LAMBORN, Colorado               BRAD ASHFORD, Nebraska
MO BROOKS, Alabama                   PETE AGUILAR, California
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                 Kevin Gates, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Bornstein, Dr. Jonathan, Chief, Autonomous Systems Division, 
  Vehicle Technology Directorate, Army Research Laboratory.......     7
Kelley, Frank, Deputy Assistant Secretary of the Navy for 
  Unmanned Systems...............................................     5
Zacharias, Dr. Greg L., Chief Scientist of the United States Air 
  Force..........................................................     3

                                APPENDIX

Prepared Statements:

    Bornstein, Dr. Jonathan......................................    52
    Kelley, Frank................................................    38
    Wilson, Hon. Joe.............................................    21
    Zacharias, Dr. Greg L........................................    22

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    65
    Mr. Wilson...................................................    61
    
    
    
    
    
    
    
    
    
    
    
  ADVANCING THE SCIENCE AND ACCEPTANCE OF AUTONOMY FOR FUTURE DEFENSE 
                                SYSTEMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                       Washington, DC, Thursday, November 19, 2015.
    The subcommittee met, pursuant to call, at 10:35 a.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Wilson. Ladies and gentlemen, I call this hearing of 
Emerging Threats and Capabilities Subcommittee of the House 
Armed Services Committee to order.
    I am pleased to welcome everyone here today for today's 
hearing on advancing the science and acceptance of autonomy for 
future defense systems. The military necessity for autonomous 
systems is obvious. Many of us recognize that our military is 
not large enough, and it is not likely to grow sufficiently 
over the next few years to handle all the threats we face.
    On top of this, shrinking budgets will shrink our military, 
stretch our military men and women and platforms even further 
to be able to accomplish their ever-changing and challenging 
missions. The promise of autonomous systems is becoming more 
evident every day. From self-driving cars to smart buildings to 
increasing presence of robotics, the full potential of 
autonomous systems is nearly endless. What is less understood 
are the technical and policy challenges that must be identified 
and solved to make those visions a reality.
    Most of us are more likely to understand what is possible 
with examples provided from television and movies. So I am 
looking forward to having real experts shed light on what the 
actual state-of-the-art technology is, and what the path to 
acceptance looks like for the military services. And with this 
backdrop, we look forward to hearing from today's panel of 
witnesses who will educate members on many of the issues 
related to autonomy research and the development of 
increasingly autonomous systems.
    And we do have a challenge. Votes have just been called, 
and we will be introducing everyone, and then we will recess 
and then come back.
    And so our witnesses today, Dr. Greg L. Zacharias, Chief 
Scientist of the U.S. Air Force; Mr. Frank Kelley, Deputy 
Assistant Secretary of the Navy for Unmanned Systems; Dr. 
Jonathan Bornstein, Chief, Autonomous Systems Division, Vehicle 
Technology Directorate, Army Research Laboratory.
    And before we recess, I would like to turn to my friend, 
the ranking member, James Langevin from Rhode Island, for any 
comments he'd like to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 21.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Well, thank you, Mr. Chairman. And I want to 
thank you for convening this hearing. I will welcome our 
witnesses. It is certainly always a pleasure diving into these 
issues with you. And I appreciate you and your convening this 
hearing this morning. So again, thank you to our witnesses for 
appearing before the subcommittee to provide your insights 
regarding advancing the science of autonomy as well as the 
challenges with its acceptance.
    Increasingly, autonomous systems and capabilities have 
provided a significant advantage to our warfighters by 
augmenting the skills while also decreasing the risk to their 
lives. Some of those systems, such as the human supervised 
Aegis Combat System, point defense systems such as Phalanx, and 
ISR [intelligence, surveillance, and reconnaissance] systems, 
have been such game changers that they have fundamentally 
altered our strategies and doctrine.
    For just one example, as members of the ETC [Emerging 
Threats and Capabilities] Subcommittee, we are extraordinarily 
familiar with how remotely piloted aircraft and identifying, 
tracking, and killing capabilities they carry have not only 
changed tactic, techniques, and procedures, but also shaped our 
counterterrorism strategy.
    Although we have begun to realize the potential of unmanned 
systems for military applications, we have yet to grasp the 
full potential of autonomous systems. Incorporation of unmanned 
platforms has been driven by demands in current areas of 
operations, and those same demands will drive us towards usage 
of increasingly sophisticated autonomy in all domains: air, 
ground, sea, space, and cyberspace.
    Bearing that in mind, it is troubling that the 2012 Defense 
Science Board [DSB] report entitled ``The Report of Autonomy in 
DOD [Department of Defense] Systems'' concluded that there are 
several hurdles precluding broad acceptance of autonomous 
systems in the Department, thereby hindering advances in 
science and technology.
    I do recognize that there have been changes and progress on 
the subject and science of autonomy in the Department since the 
DSB report was issued. In the fall of 2014, Under Secretary 
Kendall announced the commissioning of a new study focused on 
the science, engineering, and policy problems that must be 
solved to permit greater operational use of autonomy across all 
warfighting domains. Most recently, the Secretary of the Navy 
established a new Deputy Assistant Secretary of the Navy for 
autonomous systems, and a new office to coordinate all aspects 
of unmanned systems. And Deputy Secretary Work has indicated 
autonomous systems will play a significant role in the Third 
Offset Strategy.
    Today, I hope to have a robust dialogue on how we can 
advance the science, utility, and acceptance of autonomous 
systems. I hope that we can discuss the following.
    First of all, definition. How should we define autonomy? 
How should we distinguish between the degrees of complexity of 
autonomous systems? And how should we distinguish future 
autonomous capabilities?
    Next, command and control. Who is ultimately responsible in 
the chain of command as systems become more independent from 
operators? Should certain lethal capabilities remain with a 
human in the loop or become autonomous, akin to point defense 
systems? When and how should we revisit these determinations?
    Next, integration. How will we integrate autonomous systems 
and capabilities with manned and other unmanned systems across 
all domains?
    Next, science and technology. How do we better transition 
advancements in capabilities? How will the Department create a 
cohesive testing and training strategy that provides confidence 
at the strategic, tactical, and operational levels for maximum 
employment of the capability? And what hurdles must be overcome 
to formulate those strategies?
    Given that such autonomy research is being undertaken in 
the private sector, and in our labs and academic institutions, 
how, and to what degree, do we leverage that work?
    And, finally, security and risk. How do we ensure software 
and hardware systems are secure and verified? How will we 
understand and measure the risks associated with employment of 
autonomous systems?
    So with that, Mr. Chairman, I look forward to our 
conversation and our witnesses' testimony. And with that I 
yield back.
    Mr. Wilson. Thank you very much, Mr. Langevin.
    And as indicated, we are having votes on the floor at this 
time. There are four votes. There will be, sadly, a significant 
delay. But we are recessed.
    [Recess.]
    Mr. Wilson. Ladies and gentlemen, I would like to welcome 
everybody back to a meeting of the Emerging Threats 
Subcommittee on the House Armed Services Committee. We have 
recessed for votes, and the votes are concluded. And we can 
proceed. And I would like to remind every one of our witnesses 
that your written statements will be submitted for the record. 
So that we ask that you summarize your comments in 5 minutes or 
less. Thank you for being here today. We will begin with Dr. 
Zacharias.

  STATEMENT OF DR. GREG L. ZACHARIAS, CHIEF SCIENTIST OF THE 
                    UNITED STATES AIR FORCE

    Dr. Zacharias. Chairman Wilson, Ranking Member Langevin, 
members of the subcommittee, thank you for the opportunity to 
provide testimony on how the Air Force is advancing science in 
autonomy and the acceptance of the autonomy for future defense 
systems. I deeply appreciate your devoting time to this topic.
    Just as a little addition to my background, I have been 
working in the manned machine area for over 40 years, first 
helping to design the space shuttle autopilot, later working 
with flight simulation, and most recently, with systems 
providing computational intelligence to help humans make better 
decisions.
    The current focus on autonomous systems calls on many of 
these technology areas, and I am delighted to be in the middle 
of it right now in my current role as chief scientist. I hope I 
can help explain today some of the issues involved in 
development of these systems.
    In the Air Force's vision for autonomy in future systems, 
we seek the right balance of human and machine teaming to meet 
future operational challenges by combining increasingly capable 
hardware and software systems with unique human abilities in 
perception, judgment, and innovation. The goal is to have human 
autonomy teams operate effectively in high tempo, uncertain, 
and complex decision environments where humans and machines can 
work together effectively, efficiently, predictably, and 
robustly. Boiled down to its essentials, the Air Force's 
autonomy, science, and technology vision is intelligent 
machines seamlessly integrated with humans maximizing mission 
performance in complex and contested environments.
    So as machine capabilities advance, the Air Force's 
technology development approach is to keep the airmen at the 
center of the system design. Likewise, the Air Force's 
operational vision is to keep the airmen at the center of the 
critical decisions that occur throughout a mission and 
engagement. The ultimate goal is to ensure effective teaming of 
the airmen with the autonomous system for better agility, 
effectiveness, and mission success.
    Embedded in this vision are three strategic objectives, if 
you will. First, the development of sensors and data-gathering 
technology that can provide the needed information for a system 
to better understand its operating environment and mission 
goals. Basically, the context. Second, the development of 
reasoning systems and software environments to assess 
situations to make recommendations or decisions. The 
computational intelligence part of it, if you will. And then 
finally, the refinement of different ways for carrying out 
those recommendations and decisions, whether through direct 
action, such as guiding an unmanned platform, or through 
recommendations to another human or a machine teammate. The 
overall goal here is to enable systems to react appropriately 
to their environment and perform situationally appropriate 
tasks, synchronized and integrated with other autonomous human 
or machine systems.
    The payoffs include a greater ability to prevail in 
increasingly tested environments over greater ranges and time 
spans; protection of airmen from dangerous and harsh 
environments while increasing their mission effectiveness; 
reducing the time to conduct time-critical operations, such as 
in defending our air, space, and cyberspace assets against high 
tempo threats; providing increased levels of reliability, 
persistence, and resilience; and then, finally, reducing 
manning costs, as was mentioned earlier.
    In your invitation to me to testify, you asked me to 
comment on how the Air Force has implemented the 
recommendations of the 2012 Defense Science Board Autonomy 
Report. And I hope that between my written statement provided 
earlier and my comments here today, I will have demonstrated 
that the Air Force has been very responsive to the DSB 
recommendations, and is leading the way in terms of autonomy 
research and use of autonomous systems.
    Thanks for letting me speak on this exciting topic and for 
your interest in this game-changing technology. I look forward 
to answering any questions you may have.
    [The prepared statement of Dr. Zacharias can be found in 
the Appendix on page 22.]
    Mr. Wilson. Thank you very much, Dr. Zacharias. And, 
indeed, it is game changing. And I appreciate your enthusiasm 
and recognition of how important what you are doing. Thank you 
very much.
    Dr. Zacharias. Thank you.
    Mr. Wilson. Mr. Kelley.

 STATEMENT OF FRANK KELLEY, DEPUTY ASSISTANT SECRETARY OF THE 
                   NAVY FOR UNMANNED SYSTEMS

    Mr. Kelley. Chairman Wilson, Ranking Member Langevin, and 
distinguished members of the subcommittee, thank you for the 
opportunity to speak with you today. It is my pleasure to 
testify this morning beside my Army and Air Force counterparts 
as the Navy's first Deputy Assistant Secretary of the Navy for 
Unmanned Systems.
    I would also like to thank Mr. Gates for coming down and 
seeing us at the Pentagon. Really appreciate that. And it is 
not lost on me, gentlemen, that in my past life, I would find 
comfort being flanked by two Ph.D.s, and have grown accustomed 
to the safety of such intellectual supervision. So thank you, 
gentlemen, for doing that for me.
    Unmanned and autonomous systems are going to transform the 
future of how we operate as a Navy and as a military. However, 
unmanned technology will not diminish the importance of our 
most fundamental asset, our people. Instead, unmanned and 
autonomous systems which allow us to exceed human limitations 
will be used as powerful force multipliers across our fleet. 
Using autonomous systems in roles for which machines are best 
suited allows us to strategically employ sailors and marines 
for roles in which people are best suited.
    The research and development work the Navy and Marine Corps 
is conducting to improve our autonomous capabilities for future 
military systems is impressive, from the early research in 
cooperative behavior to autonomous takeoffs and landings of our 
unmanned aircraft. These innovations in autonomy, however, need 
to be nurtured and introduced in a manner which will gain the 
trust of our sailors and marines, and the public we are here to 
protect.
    I hope the committee will come to appreciate the deliberate 
and disciplined nature in which the Navy and Marine Corps are 
investing time and resources in the development and 
experimentation with this technology.
    It is also important to understand that realizing the 
vision of a fully integrated unmanned and manned naval force 
will depend as much on significant military cultural evolution 
as on the technology innovation. We have to change the way we 
think to evolve the way we fight.
    The strong leadership within the Navy today is laying down 
the foundation that will allow us to realize the vision of a 
fully integrated future force.
    This past April, the Secretary of the Navy announced that 
he was creating a new organization to focus and guide the 
Navy's efforts on unmanned systems under the strong leadership 
of the Assistant Secretary of the Navy for Research, 
Development, and Acquisition, in order to create the Office of 
the Deputy Assistant Secretary of the Navy for Unmanned 
Systems, and to bring together all the many stakeholders and 
operators who are currently working on this technology in order 
to streamline their efforts.
    Additionally, a new resource sponsor was established under 
the Chief of Naval Operations. OPNAV [Office of the Chief of 
Naval Operations] N-99, or unmanned warfare systems, was 
created so that all aspects of unmanned in all domains will be 
coordinated and championed. As of the 2nd of November, both 
organizations have been officially stood up and populated with 
highly qualified individuals from across our Navy and Marine 
Corps. Prior to our official establishment, the groundwork 
commenced over the summer, and the two organizations have 
collaborated with the DASN [Deputy Assistant Secretary of the 
Navy] for Research, Development, Test, and Evaluation [RDT&E] 
to develop a cross-Department prototyping and experimentation 
approach that embraces innovation.
    To work rapidly to harness the potential of unmanned 
technology into deployable systems is built upon the incredible 
foundation laid by our Office of Naval Research [ONR] and the 
Naval Research Laboratory. These two organizations have a rich 
history of basic and fundamental research in autonomous and 
unmanned systems conducted by world-class personnel in world-
class facilities.
    However, despite the ample research that has been done, and 
despite the claims of some, autonomy is not a solved problem. 
There is much work to be done before we can realize our vision 
of a fully integrated manned and unmanned force. Autonomy still 
provides a host of unique challenges. Furthermore, autonomy 
alone will not ensure a secure America. We must understand the 
limits of autonomy, and, in so doing, come to more fully 
appreciate the advantages of being human.
    In this way we will be able to build an effective teaming 
relationship between people and autonomous systems. The 
development of trust within this team will be critical to the 
success of all of our missions. We have a moral imperative to 
equip our sailors and marines with the best capabilities to do 
their missions. However, we also have a moral imperative to 
ensure that in addition to the technology innovation we develop 
an ethical, legal, and policy framework for how we will employ 
unmanned and autonomous systems.
    Even as we carefully and deliberately build this framework, 
we also recognize that we have to be able to robustly defend 
against adversaries who do not play by our rules. Unmanned and 
autonomous technology will transform the way we operate. Your 
Navy and Marine Corps are committed to understanding and 
forging an effective relationship between man and machine that 
will unlock our full potential of both.
    Chairman Wilson, Ranking Member Langevin, and distinguished 
members of the subcommittee, thank you again for the 
opportunity to speak with you today. And I look forward to 
answering your questions.
    [The prepared statement of Mr. Kelley can be found in the 
Appendix on page 38.]
    Mr. Wilson. Thank you, Mr. Kelley. And we appreciate your 
prior Marine service, too.
    We now proceed to Dr. Bornstein.

STATEMENT OF DR. JONATHAN BORNSTEIN, CHIEF, AUTONOMOUS SYSTEMS 
    DIVISION, VEHICLE TECHNOLOGY DIRECTORATE, ARMY RESEARCH 
                           LABORATORY

    Dr. Bornstein. Chairman Wilson, Ranking Member Langevin, 
and other distinguished members of the subcommittee, thank you 
for the opportunity to speak with you about the research and 
development work currently being pursued by the Army to improve 
autonomy capabilities for future military systems. The recently 
published Army Operating Concept notes that the application of 
emerging autonomy technology creates the potential for 
affordable, interoperable systems that improve the 
effectiveness of soldiers and units. That document provides 
vision that, quote, ``Autonomous and semiautonomous operational 
capabilities may increase lethality, improve protection and 
extend soldiers' and units' reach,'' unquote. The Army Training 
and Doctrine Command [TRADOC], together with the Army's science 
and technology, acquisition, and test and evaluation 
communities, is developing the robotics and autonomous systems 
strategy to implement this vision, creating a road map for 
autonomy technology development, materiel acquisition, and 
training for the next 30 years.
    In his recent presentation at the Reagan Presidential 
Library, the Deputy Secretary of Defense noted that the 
autonomy--I am sorry--that autonomy technology has reached an 
``inflection point.'' The technology is now being pursued 
widely. It is being pursued globally and by the commercial 
sector. There are differences, however, between the commercial 
and military application of this technology. Commercial usage 
generally focuses on benign, permissive, and structured 
environments. The military must design for adversarial, highly 
dynamic, and structured environments.
    In the near term, the Army community has undertaken efforts 
to gain experience with these complex software systems. TRADOC 
Centers of Excellence have utilized the ongoing Network 
Integration Evaluation and beginning this fiscal year the 
Robotics Enhancement Program to place surrogate experimental 
autonomous systems in the hands of soldiers. Such 
experimentation will inform and aid development of future 
requirements, doctrine, tactics, techniques, and procedures 
required to effectively employ this new capability.
    For the mid and far term, the science and technology 
enterprise's efforts are focused on seven main thrusts. It is 
focused on the maturation and demonstration of advanced 
unmanned--I am sorry--advanced manned/unmanned teaming for both 
air vehicles and ground vehicles to permit unmanned assets to 
serve as wingmen to manned elements of the force. It is 
exploring the effective teaming of unmanned air and ground 
vehicles. It is developing robotic technologies and 
capabilities that will enable unit resupply and sustainment 
operations using optionally manned and unmanned vehicles, and 
it is developing the cognitive decision tools for effectively 
commanding teams of advanced unmanned systems.
    In addition, it is conducting research focused on creating 
the technology to seamlessly integrate unmanned elements, both 
air and ground, into small unit teams, and research to enable 
the development of swarms of unmanned systems capable of 
effectively conducting military missions at range. Taken as a 
whole, these efforts will provide the underpinnings for 
autonomous systems that can operate side by side with our 
soldiers on the battlefield in applications ranging from 
resupply to reconnaissance.
    Although the autonomy technologies available today work 
well for the sets of conditions for which they were designed 
and tested, they lack the flexibility and adaptability that 
would enable them to work well for other situations. Systems 
using today's technologies must be teamed with humans to supply 
the cognitive capability required for complex missions, while 
the unmanned components of the force performs repetitive or 
persistent tasks. Significantly advancing autonomy technology, 
taking machines from tool to teammate, will require technology 
advancement beyond what is available today.
    In conclusion, once again, I would like to thank Chairman 
Wilson, Ranking Member Langevin, and the other distinguished 
members of the committee for the opportunity to discuss the 
Army's role in pursuing autonomous capabilities for future 
military systems. The Army is committed to developing 
autonomous systems that can, one day, work side by side with 
our soldiers. I look forward to your questions.
    [The prepared statement of Dr. Bornstein can be found in 
the Appendix on page 52.]
    Mr. Wilson. Thank you, Mr. Bornstein. And with three sons 
serving in the Army, I want you to be very successful.
    And we now will proceed to 5 minutes of questioning by each 
member of the panel. And fortunately we have Kevin Gates as our 
staff person who is very strict on maintaining the 5-minute 
rule, beginning with me.
    And so we will begin with Dr. Zacharias. You mentioned in 
your testimony the concept of autonomy at rest. Could you 
explain that in more detail for the members so we can better 
understand what is important?
    Dr. Zacharias. Yes, sir. Yes, sir. And I should give credit 
to Dr. Craig Fields, the past director of DARPA [Defense 
Advanced Research Projects Agency], for--that is where I heard 
the phrases originally, but the notion is that we tend to think 
of autonomy in motion because of the RPAs [remotely piloted 
aircraft] and the UAVs [unmanned aerial vehicles] that we 
recognize, or Google's cars, or the Navy's unmanned underwater 
vehicles. And so all these systems, these autonomy in motion 
systems, have sensors or databases that tell them what is going 
on in the environment, like a GPS sensor, a global positioning 
sensor for an RPA position. They also have onboard some kind of 
smarts, autonomous smarts that--embedded in an onboard computer 
that tells it how to act based on, say, an objective to fly 
from one way point to another.
    And then they also have some sort of motor or locomotion 
subsystem that allows it to move around in its environment. And 
this could be for an RPA, a remotely piloted aircraft, the 
throttle or the ailerons or the control system. So while the 
sensors are very important to these systems and the motor parts 
are very important, the real advances in autonomy are happening 
in the middle part, the brain part, the onboard smarts. So if 
you think about removing those onboard smarts to a ground-based 
system, and putting them, say, in a command and control center 
or a planning center, then you have got autonomy at rest. So 
many of the advances that we are going to see in this area 
are--may come from data feeds or other sensors or satellite 
imagery, but they are going to be in these ground-base 
situations. And they will have a sense part and a think part 
and an output part. It might be a natural language generator 
like a SIRI [Speech Interpretation and Recognition Interface] 
interface or a visualization. But once you have done this, you 
have converted an autonomy in motion system to an autonomy at 
rest system.
    So our community right now is beginning to realize that 
autonomy is not limited to systems that move about or locomote, 
but they are also very useful in decision-aiding systems, 
visualization systems, and so forth. And we can multiply the 
effectiveness of a lot of--if we could go to a modular 
approach, we could use one module in other areas, and we may 
also gain some efficiencies in test and validation as well. I 
hope that helps explain.
    Mr. Wilson. And thank you very much.
    And, Dr. Bornstein, in your testimony you mentioned 
commercial usage for some autonomy technologies. Where do you 
see the military driving technology development? And where do 
you see you will be to draw from the commercial sector for 
needed technologies?
    Dr. Bornstein. Sir, in my testimony I also mentioned that 
commercial applications tend to work in structured environments 
where there is less dynamicism. So despite what you might think 
about driving on the highways today, there is structure in the 
highway system. The Google cars, the Uber taxis, those are 
applications which are dealing with structure.
    The military, however, is dealing with the dynamic 
environment, one that where we don't know things in advance. We 
have to have organic sensing and reasoning powers onboard the 
vehicle. So there is a distinct difference there. Where the 
military can leverage heavily is for those applications that 
are in more structured environments. Think in terms of 
logistics, many aspects of convoy operations, forward operating 
bases. Those are all items where there is structure, where 
there are commercial entities that are involved with 
development of systems, and the Army can leverage those 
capabilities. Or I should say the services can leverage those 
capabilities. I apologize.
    Mr. Wilson. Well, thank you very much.
    And, Mr. Kelley, the Navy has a unique challenge, and that 
is air, land, or sea operation. Would you describe some of the 
technical challenges specific to autonomous systems for each of 
the domains?
    Mr. Kelley. Thank you, sir. And that is true, that we do 
note that we operate in all domains and simultaneously in many 
cases. I was reminded today by Dr. Schuette, who is the 
director of research at ONR, that one of the ways to overcome 
some of the challenges is to start our S&T [science and 
technology] and make most of our S&T investments in domain 
agnostic and also platform agnostic. So that is one way that we 
are going to approach that.
    If I can just real quick, I spent a lot of my time as a 
young guy doing electronic warfare, and I was told it was one 
of the toughest missions that you would ever participate in. 
Complex, dense, can be very confusing. It requires quite a bit 
of training. Not until I got exposed to what it was like in the 
mine and undersea warfare of how cluttered that environment is 
did I come to appreciate that my electronic warfare environment 
might be the number two most complex combat environment.
    The way that that is also compounded is that the things we 
take advantage of in--when you operate above the surface, 
ability to communicate in the clear, taking advantage of things 
like the GPS, are not available to you. So these are going to 
be really big challenges for the Navy, particularly 
communication underwater and our precision navigation solutions 
that will provide to those solutions.
    Mr. Wilson. Well, thank you very much. And Mr. Gates is 
again very precise. My time is up.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. And I want to thank 
our witnesses for your testimony today.
    So to all of our witnesses, what policy and operational 
concept issues at the tactical and strategic level are most 
pressing and must be addressed before deployment of more 
capable autonomous systems? For instance, the unmanned aerial 
systems concepts of operations requires an operator for takeoff 
and landing, and airspace restrictions of the U.S. impede 
testing and training. Integration into the airspace is still an 
issue, and systems must be able to detect, sense, and avoid. 
But this is not unique to air, of course.
    So, Secretary Kelley, do you want to start from the Navy's 
perspective?
    Mr. Kelley. Certainly, sir. Thank you. You have listed off 
quite an array of challenges. One thing that I would like to 
mention. When I had a chance to get a hint that the Secretary 
was going to stand up a Deputy Assistant Secretary of the Navy 
for Unmanned Systems, one of the first places that I went to 
was an association called AUVSI, the Association of Unmanned 
Vehicle Systems International. They had tagged on the ``I'' on 
that point. I had a chance to talk to the president and CEO 
[chief executive officer] of AUVSI, a gentleman by the name of 
Brian Wynne, who did not spend any time in the military. And 
one of the things that we quickly found out in our dialogue was 
that we have many of the same problems. And so here is an 
organization not necessarily associated with DOD that is 
willing to team with us within the defense sector to solve some 
of these issues that you mentioned, sir, like the airspace 
issues, the sense and avoid issue. So there is a great 
opportunity, I think, to team with the commercial sector.
    I think one of the other areas that, if I can think back in 
my own time. Back in the day as a young guy in flight school, 
sometimes systems were not as reliable as we see our systems 
today. And so sometimes you would be in the cockpit and you 
would just pray to God that a piece of gear was actually going 
to function. I think some of the young people today take that 
for granted. The reliability of our equipment today is 
unprecedented. They don't question the fact that it is going to 
work. I think what I am finding today that is remarkable is, 
that our young people are really concerned about the ethical 
and moral implications of how these unmanned systems are going 
to be used.
    This will also help us in getting the trust that I spoke 
about in my oral statement of our sailors and marines. The 
trust issue is sort of an implied task. We do have DOD 
directives that talk about certainly weaponizing platforms, but 
I think the biggest issue is sort of an intangible, and it is 
this ethical and moral element of what it means to put unmanned 
systems in combat.
    Mr. Langevin. Okay. Other panelists? Anybody else want to 
comment?
    Dr. Bornstein. I will make one off-the-cuff statement if--
and one of the things that I see in the commercial sector is 
the issue of responsibility. We talk about an unmanned system. 
So if there is an accident in the national airspace or an 
accident on the road, who is liable for the action? As was just 
mentioned by my colleague, Mr. Kelley, we talked about--he 
talked about the ethical responsibility that many people see in 
the use of unmanned systems.
    Will the liability for their use, will the responsibility 
of their use, who will that fall upon? That is a personal 
opinion that it will be a major issue in the future going 
forward both for the commercial sector and for the military 
sector.
    Mr. Langevin. That actually kind of touches on my next 
question. You kind of beat me to it there. But, again, I will 
pose it to the other members of the panel.
    As I mentioned in my testimony, command and control becomes 
more challenging as systems become more autonomous. So how will 
you address chain of command as systems become more autonomous, 
particularly when you are talking about lethality in systems?
    Dr. Zacharias. Maybe I can start on that. This is a little 
out of my scope since I am on the S&T side. But I think, as Mr. 
Kelley said, I think much of it has to do with trust and 
proficiency. So one of the things is to try and design trust 
into these systems, including engineering the system so it 
performs well within its scope of operations, knowing when it 
is exceeding its scope of operations or the human operator 
knowing that, making sure they are knowledgeable of mutual 
understanding of their goals if they are working as a team or 
their sub tasks, and providing for natural interfaces. 
Transparency and explainability of their systems. It may be 
better to not have them be optimum, but rather be adequate and 
be able to explain what they are doing.
    And, finally, training and practicing together just like 
any team would win. And, finally, I think the notion is that if 
you can get these systems to codevelop concepts of operations 
and organizational design. I think the basic issue we are not 
going to just throw things over the transom and expect them to 
be perfectly integrated into the organization. And I think 
concepts will be codeveloped with the technology.
    Mr. Langevin. Mr. Kelley, do you have anything to add?
    Mr. Kelley. Yes, sir. Thank you. I really--one of the great 
things about coming to hearings like this is you learn so much. 
And I love the phrase of ``codevelop.'' I just had a chance to 
sit down with the PEO [Program Executive Officer] for C4I 
[Command, Control, Communications, Computers, and Intelligence] 
for the Navy, Admiral Chris Becker, and we were talking 
yesterday about the organizations that provide the 
infrastructure, so the C2 [command and control junction] nodes, 
the network, the com pipes. How important it is to get with 
those organizations quickly. Because that can bring a concept 
of operations down to its knees even though that you have the, 
you know, the finest autonomous system, the autonomous platform 
that, you know, that the, you know, greatest engineers in the 
world could have designed.
    I also think when we start coming up with what are those 
essential elements of information that a commander, and at the 
end of the day, it is going to be a commander who is going to 
be held accountable for how these systems are used, what are 
those elements of information that they are going to need in 
order to exercise judgment. We have got to come up with these 
priority schemes, a way to make sure that that kind of 
information and data gets to the commander on the scene.
    Mr. Langevin. Very good. Thank you. And I yield back, Mr. 
Chairman.
    Mr. Wilson. Thank you, Mr. Langevin.
    We will now proceed on a second round. We really appreciate 
you being here today, each of you.
    For each of you, beginning with Dr. Zacharias, how are you 
drawing on or integrating technology efforts being funded by 
industry through their internal research and development 
process or from international S&T efforts being funded through 
foreign governments' science funding agencies?
    Dr. Zacharias. Thank you, sir. Well, let me start with the 
international efforts first. So we are exploring agreements 
with international partners, collaborative technical exchanges. 
The Air Force Research Lab has agreements out with--a 
multilateral agreement under--there is a technical cooperation 
effort with the U.K. [United Kingdom], Australia, New Zealand, 
Canada, and working on the grand challenge in autonomy 
research. And we are also participating heavily in the V&V 
[verification and validation] issues because eventually if we 
are having coalition operations, we will have these systems 
working with one another, and they will have to be cooperating, 
clearly.
    So on the commercial side, we are working with the DIUx 
[Defense Innovation Unit Experimental] out in the--I apologize. 
I can't remember what it stands for, but the DOD initiative out 
in the West Coast, Silicon Valley, to try and work with some of 
the folks that are doing some of the advance technologies in 
machine learning, pattern recognition, robotics, and so forth. 
And we will be reaching out additionally with more Air Force 
Research Lab personnel in that direction.
    Mr. Wilson. Thank you. And Mr. Kelley.
    Mr. Kelley. So I think one of the responsibilities of our 
office is also to work across the entire enterprise and provide 
opportunities for industry to participate in demonstrations and 
exercises. Even though we have been in combat in Afghanistan, I 
think that the Marine Corps and the Office of Naval Research 
can be very, very proud of a program that was started a while 
back.
    I can't exactly remember when it was. But it was in terms 
of an unmanned logistics UAV that would deliver, you know, 
cargo out on the battlefield. And to date, the cargo UAV was 
able to deliver, you know, over--could have the potential to 
deliver over 6,000 pounds of cargo a day. Transitioning that 
into, you know, more formalized programs like AACUS, the 
autonomous aerial cargo utility system, a K-MAX bird 
[helicopter]. I think that that is an important opportunity for 
industry to be able to demonstrate their understanding of what 
the environment is like.
    I already described our association with AUVSI. We did have 
a chance in October to speak. It was the first time we could 
speak as an organization at their AUVSI defense. And I see many 
people sitting behind me that were actually there as well, both 
Army and Air Force. And it was a great opportunity for folks to 
actually show what was going on, in not only commercially, but 
in each of the services.
    Mr. Wilson. Thank you very much.
    And Dr. Bornstein.
    Dr. Bornstein. Like the other services, the Army maintains 
bilateral arrangements with many countries through the TTCP 
[The Technical Cooperation Program], the Five Eyes, through 
countries such as France, Germany, Israel, where we try to 
develop programs of common interest. In addition, my own 
organization, the Army Research Lab, has embarked upon a new 
initiative over the course of the past 2 years that we call 
Open Campus, which is focused not on giving contracts to 
companies but rather developing cooperative research and 
development agreements where there is a mutual interest on the 
part of both parties.
    Letting small business who are usually the furnaces of 
innovation and technology come to our site to utilize DOD 
facilities to further what they are doing together with 
researchers from the laboratory. We do similar activities with 
other organizations throughout the Army, and we invite the 
other services to participate as well.
    Thank you, sir.
    Mr. Wilson. Thank you very much. And for anyone who would 
like to answer, what defenses exist to protect autonomy 
technologies from being hacked, resulting in losing control?
    Mr. Kelley. I will take a stab at it, sir. And I think one 
of the most important things here is a new testing paradigm for 
autonomous systems that would lean heavy on the cyber side of 
the house I think is the most critical piece.
    Now, one of the challenges, I think, with autonomous 
systems is that it becomes very challenging to try to test all 
of the possible scenarios that you could possibly encounter. 
And so we will have to work through that. But the VV&A, the 
verification, validation, and accreditation of these systems 
and, of course the accreditation will also will have a cyber 
element to it means that, you know, that we have been able to 
test and make sure that, you know, that it can't be hacked into 
and taken over.
    Mr. Wilson. We just wish you the best addressing, sadly, 
people who have such ill intent, as we see every day in the 
world.
    We will now proceed to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. And as usual, the 
chairman and I are very much on the same page on asking these 
kinds of questions. And I wanted to get to the cyber question 
or the security question as well. Just to build on that, if you 
could elaborate, what role do trusted foundries and third party 
manufacturer agreements play in the security?
    Dr. Zacharias. I will take a stab at that one, too. So my 
understanding is, what role will trusted foundries and supply 
chains?
    Mr. Langevin. Yes.
    Dr. Zacharias. Clearly it will be, I think--we are planning 
an upcoming study on looking at issues that Mr. Kelley raised 
both in terms of embedded systems, reliability, and authority 
authenticity, if you will. Coms links, vulnerabilities. Because 
in terms of over and above--vulnerabilities over and above our 
normal embedded systems, which we also have those issues of 
coms links and cyber vulnerabilities, and there are efforts 
ongoing. I am not intimately familiar with them, but in terms 
of establishing trusted foundries now, and certainly many more 
regulations, say, going out to industry in terms of protecting 
government IP [intellectual property] and making sure that 
outsiders don't exfiltrate our designs and compromise our 
embedded systems.
    In fact, there was a large summer study, excuse me, by the 
Science Advisory Board for the Air Force this summer looking 
specifically at embedded systems' vulnerability. And clearly 
that will have an impact on autonomous systems.
    Mr. Langevin. Thank you.
    To all of our witnesses, the Defense Science Board 
identified transition or lack thereof as an obstacle for 
utilization of autonomous capabilities. What steps are you 
taking to improve transition of technologies?
    Dr. Bornstein. I will start. In my opening remarks, I 
mentioned ongoing activity looking at near-term applications of 
the technology. Those are key and critical to transition and 
adoption by the force. As I have said many times, it is very 
difficult to write requirements for a revolutionary technology 
in which you have no experience. The use of those activities is 
to try to build that experience base on the operational, the 
training and doctrine community, so they can begin to build the 
requirements, the techniques, tactics, and procedures that will 
ultimately be used and facilitate the transition of technology 
in that way.
    Mr. Langevin. Okay. Mr. Kelley.
    Mr. Kelley. Thank you, sir. So also within the DSB 2012 
study they also talked about the autonomous reference 
framework, which in my discussions with folks at ONR, they are 
very receptive to that concept. And actually, when I think 
about it, it makes a lot of sense.
    It is the three level--a cognitive level, a mission level, 
and a complex--complex systems trade space level. So that goes 
right to the heart that I think that Dr. Bornstein was talking 
about in terms of the design of these systems.
    In the Navy right now we--with the stand-up of DASN 
Unmanned Systems and the renewed emphasis of DASN RDT&E to 
energize a naval research development enterprise, and with the 
stand-up of OP 99, our resource sponsor, we are taking a really 
rigorous stab at prototyping and experimentation. And this is 
to better inform the requirements at the front end of our 
acquisition framework. And so the most important thing here is 
to get the requirements right.
    So what we envision is that this will be an iterative cycle 
constantly going back to the warfighter in terms of making sure 
that we got those requirements right.
    Mr. Langevin. Thank you.
    Dr. Zacharias. And if I could follow up, my colleagues 
covered most of the points, I think. I think this is--again, I 
think the Air Force has learned a lot with its RPA experience 
being the lead service in establishing so many thousands of 
hours of operation in that area. And it has led to a change in 
operations and how they are used and issues to do with manning 
and manpower.
    And it has also raised other issues going from how do you 
pilot these things to actually how you process the information, 
the thousands of hours of video that you get off of them. And 
so they raise other areas and opportunities for autonomy.
    And one last thing I would say, these will be again 
codeveloped and embraced more fully with good human systems 
integration technologies. Again, I think something Mr. Work 
mentioned a couple weeks ago, how you get these systems to work 
closely with humans and make them more understandable and 
reliable and trustworthy, appropriately trustworthy. You don't 
want to encourage trust where it isn't deserved.
    Mr. Langevin. Okay. Very good. And I guess to all of you, 
you've touched on it a little bit already, but how well are you 
coordinating your autonomous systems investment strategies in 
lessons learned across the services?
    Mr. Kelley. I'll try. So I think that is the reason--I 
don't think, I know--that is the reason why our office was 
stood up, to be quite honest. And one of the things that is 
different about the DASN for unmanned shop is I have 
counterparts within the Assistant Secretary of the Navy for 
Research, Development, and Acquisition, other DASNs. And if you 
could sort of picture them as being vertically oriented within 
a domain. Say DASN air, guy by the name of Gary Kessler is DASN 
air. Gloria Valdez, DASN ships. They have the whole portfolio 
of those particular platforms, air and ships.
    In our shop we will be cutting across. We will be cutting 
across, essentially generating and now supervising, providing 
oversight, managing a portfolio of just unmanned systems and 
how that fits into the broader naval operational concepts.
    Dr. Bornstein. I would be remiss if I didn't try to answer 
that question since I am currently acting as the lead for the 
Autonomy Community of Interest [COI] within OSD [Office of the 
Secretary of Defense]. And Larry Schuette is my deputy sitting 
behind me there. OSD basically recognizes that there needs to 
be coordination among all the services. It is part of Reliance 
21. And ideally the community of interest should be a forum 
where subject matter experts can get together and really begin 
to understand not only what each other are doing, but have the 
opportunity to cross-fertilize thoughts and concepts concerning 
the technology.
    Next Wednesday the Autonomy COI will hold a workshop at 
ONR, really bringing together a large number of people to 
discuss three topics: modeling and simulation; test and 
evaluation, verification, validation; and trust in automation. 
And those will be three topics. Community members will be there 
talking about it. I can't tell you what will come out of it, 
but I almost guarantee that there will be some cross-
fertilization, and it will be agnostic, service agnostic, in 
that regard. So there is that definite thrust towards cross-
fertilization among all the services, at least at the S&T 
level.
    Mr. Langevin. That is encouraging. Thank you.
    Well, if nothing else on that, I will thank our witnesses 
and I will yield back. I have additional questions I will 
submit for the record, but thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Mr. Langevin. And thank each of you 
for being here today and in the future. I am very, very 
grateful, Kevin Gates has been a lead on this. He has actually 
been working in this field for many years. And I am really 
grateful for his professionalism, and we look forward to 
hearing and working with you in the future.
    And with that in mind, we are adjourned.
    [Whereupon, at 12:26 p.m., the subcommittee was adjourned.]

 

      
=======================================================================



 
                            A P P E N D I X

                           November 19, 2015

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 19, 2015

=======================================================================

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

 
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           November 19, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. In your testimony, you discuss the 4-year study you are 
doing to understand pilot trust in the Auto Ground Collision Avoidance 
Systems. How will the lessons of this study be applied to other 
platforms or domains?
    Dr. Zacharias. The AFRL Auto Ground Collision Avoidance Systems 
(AGCAS) acceptance study seeks to gauge pilot trust of the AGCAS system 
and to identify and validate the antecedents of trust for this highly-
automated Air Force system. The lessons learned from this study will 
benefit the existing AGCAS system in the F-16 and will feed into the F-
35 AGCAS implementation.
    The study also investigates pilot attitudes toward a broad range of 
future automated technologies such as the Automatic Air Collision 
Avoidance System (AACAS), automated missile avoidance technologies, 
automated station keeping and refueling capabilities, and future 
concepts for autonomy such as autonomous Wingmen. These results garner 
insight into the factors that make a pilot more or less trusting of 
future automated technologies. Such information will be instrumental in 
avoiding pilot distrust of near-term capabilities such as the 
Integrated Collision Avoidance System, which integrates AGCAS and 
AACAS, as well as long-term capabilities such as autonomous Wingmen.
    While the focus of the study is heavily focused on the air domain, 
I can easily see the lessons learned being folded into building space 
operator trust towards more automated station keeping algorithms and 
mission allocation. While this domain does not have the same risk to 
operator life that the air domain has, the long-term and financial 
consequences of mistakes are high. We will also examine the lessons 
learned for applicability to the cyber domain.
    Mr. Wilson. In your testimony, you discuss the Low Cost Attritable 
Strike Unmanned Aerial System. What is the timeline for this program? 
What are some of the policy challenges that you think you will 
encounter as you demonstrate the technology?
    Dr. Zacharias. The currently open Broad Agency Announcement (BAA) 
for the Low Cost Attritable Strike Unmanned Aerial System seeks to 
provide a benchmark vehicle concept that we will build upon and use for 
future demonstration activities in an experimentation campaign plan. 
Contract award is targeted at January 2016 with the program challenging 
its participants to achieve first flight 24 months after contract 
award.
    There are a number of policy challenges that will likely be 
encountered as we demonstrate this technology. The acquisition and 
ownership model of an attritable aircraft is a significant departure 
from traditional processes and policies, and is akin to treating the 
aircraft as a consumable or commodity product that can be procured with 
a short development cycle and significantly less emphasis on support 
and maintenance requirements.
    With a short development and ownership timeline, life cycle 
operators will be able to acquire assets tailored for requirements as 
they evolve instead of lengthy modification of existing systems, which 
will enable quick tech refresh--common to the automotive industry. At 
the same time, these platforms will require an agile acquisition 
system, novel training systems that are more reliant on simulation, new 
roles and responsibilities for operators and maintainers, storage, and 
disposal. In addition, highly tailored air worthiness and certification 
considerations will pose challenges to the current acceptance practices 
and could change how and where we approach the use of unmanned systems.
    Mr. Wilson. In dealing with test, evaluation, validation and 
verification, how are you working with the Test Resource Management 
Center to better understand where investments are needed for testing 
infrastructure, as well as where changes to the test ``process'' might 
be needed?
    Dr. Zacharias. The Air Force is working with the Test Resource 
Management Center (TRMC) primarily through the Test, Evaluation, 
Verification, and Validation (TEVV) Working Group of the DOD Autonomy 
Community of Interest (COI), of which both are active participants.
    The Air Force is also supporting the TRMC Unmanned Autonomous 
Systems Test (UAST) Group--through the Autonomy COI TEVV working 
group--on a study designed specifically to answer the question ``How do 
we change our T&E infrastructure to accommodate future autonomous 
systems''. This study, led by Georgia Institute of Technology, was a 20 
month effort whose final report is scheduled to be delivered to TRMC by 
Jan 2016.
    Finally, an example of collaboration between the Air Force, TRMC, 
and many others in identifying changes to the test process is a joint 
TRMC, AF Institute of Technology, and AFTC sponsored study on ``How to 
conduct test and evaluation of autonomous systems and what specific 
testing methodologies and capabilities need to be addressed?'' The 
study is led by the Scientific Test and Analysis Techniques Test and 
Evaluation Center of Excellence at AFIT in direct response to an 
inquiry by Dr. Brown (ASD/DT&E).
    Mr. Wilson. What opportunities exist to conduct testing or 
experimentation with our international partners, including 
international non-governmental organizations?
    Dr. Zacharias. The U.S. engages in a wide range of T&E activities 
with partner nations. These opportunities include Reciprocal Use of 
Test Facilities, test range usage, weapons testing, and research. 
Collaborative work is codified in various forms. Government-to-
Government agreements include provisions for information sharing legal 
liabilities, and shared funding. Cooperative Research and Development 
Agreements (CRADAs) are written agreements between private companies 
and government agencies to work together on projects. The Research 
Grants and Contracts program directly funds University and Foreign 
Laboratory basic research overseas through the Air Force Office of 
Scientific Research (AFOSR).
    The Air Force continues to explore with those international 
partners, via collaborative technical exchanges, opportunities to 
advance autonomous research. The Air Force Research Laboratory has 
International agreements that facilitate collaborative autonomy 
research with our key partners. One example of effective collaboration 
is a multi-lateral under The Technical Cooperation Program (US/UK/CA/
AU/NZ) agreement which is facilitating a Grand Challenge in autonomy 
research. AFRL is participating heavily in this effort focused on how 
best to approach Testing, Evaluation, Verification, and Validation 
internationally.
    Mr. Wilson. The Navy and Marine Corps both have long histories of 
fleet experimentation, independently and as a naval team, as a way to 
test new technologies, new concepts and new ways of doing business. 
What resources do you expect to have to conduct experimentation? How 
will you integrate these activities into broader fleet exercises?
    Mr. Kelley. To accelerate the development and Fleet introduction of 
unmanned systems, the Department of the Navy recently established the 
Deputy Assistant Secretary of the Navy for Unmanned Systems (DASN 
(UxS)), the Director, Unmanned Warfare Systems Division (OPNAV N99), 
and the Naval Rapid Prototyping, Experimentation, and Demonstration 
Office, within Deputy Assistant Secretary of the Navy for Research, 
Development, Test and Evaluation (DASN(RDT&E)). Working together, these 
new organizations will accelerate the practice of experimenting with 
developmental and operational prototypes to address Navy and Marine 
Corps operational needs. DASN (RDT&E) will leverage the Naval Research 
and Development Establishment's (NR&DE) vast technical capabilities, 
laboratories, major ranges, and test facilities to develop, integrate 
and experiment with advanced naval prototypes. DASN (RDT&E) provides 
the avenue to focus and integrate resources from across the DON and the 
DOD programs working closely with Fleet Forces, Warfighting Development 
Centers, and the Marine Corps Combat Development Command. Prototypes 
will be incorporated into Fleet experiments, such as: RIMPAC, Trident 
Warrior, Bold Alligator, Unmanned Warrior, etc., enabling technical and 
operational assessments of emerging operational concepts, technologies, 
and/or engineering innovations.
    Mr. Wilson. The subcommittee is familiar with the DARPA investments 
in Anti-Submarine Warfare Continuous Trail Unmanned Vessel, or ACTUV, 
program. What plans does the Navy have to experiment with that 
platform?
    Mr. Kelley. The Office of Naval Research will integrate ONR-
developed payloads and autonomous control components and perform at-sea 
testing of the DARPA ACTUV vessel, in its ``Medium Displacement 
Unmanned Surface Vessel (MDUSV)'' program. The payloads are for mine 
countermeasures, anti-submarine warfare and electronic warfare 
missions. The at-sea testing will be focused on these payloads, the 
mission capability they provide, as well as extensive testing of 
ACTUV's autonomous control system.
    Mr. Wilson. In dealing with test, evaluation, validation and 
verification, how are you working with the Test Resource Management 
Center to better understand where investments are needed for testing 
infrastructure, as well as where changes to the test ``process'' might 
be needed?
    Mr. Kelley. DASN UxS will leverage the existing construct within 
DON that is responsible for ensuring the test community is ready to 
support required testing. This construct, led by DON T&E, is 
responsible for collaborating across the ranges/labs/warfare centers, 
programs/PEOs and the rest of the test community to determine 
requirements for future autonomous systems, gaps in current T&E 
Infrastructure, and identification of future investments and/or changes 
to the test process.
    a. DON T&E will continue to be the primary interface with TRMC who 
is sponsoring an Autonomy T&E Study with an objective of assessing the 
adequacy of the test resources and infrastructure required to test 
autonomous systems. The study, which is being conducted by Georgia 
Tech, will also develop a time-phased investment strategy to address 
potential shortfalls in T&E capabilities.
    b. The study team is coordinating closely with the Autonomy 
Community of Interest (COI), Test & Evaluation and Verification & 
Validation (ATEVV) Working Group.
    c. The Navy is actively engaged in the study with participation 
from OPNAV, ONR, NRL, NAVAIR and NAVSEA.
    i. Several Naval programs are being considered in the study such as 
the Autonomous Aerial Cargo Utility System (AACUS), Unmanned Carrier-
Launched Airborne Surveillance and Strike system (UCLASS), and Large 
Displacement Unmanned Undersea Vehicle (LDUUV). In addition, DARPA's 
Anti-Submarine Warfare Continuous Trail Unmanned Vehicle (ACTUV) is 
also a key consideration.
    ii. NAWC-AD, NAWC-WD, NSWC Keyport, and NSWC Newport T&E personnel 
are working with the study team to examine the future state of 
autonomous systems, and identify the required T&E/experimentation/
assessment/certification infrastructure, technology, capabilities and 
workforce required to address future autonomous systems.
    Mr. Wilson. What opportunities exist to conduct testing or 
experimentation with our international partners, including 
international non-governmental organizations?
    Mr. Kelley. Joint Warrior is a United Kingdom led bi-annual (spring 
and autumn) multi-national exercise which takes place in Scottish 
Exercise Areas. In October 2016 an additional exercise will be 
conducted in coordination with the Joint Warrior Exercise, referred to 
as Unmanned Warrior. The objective of this exercise is to experiment 
with the tactical employment of unmanned and autonomous systems in the 
maritime and littoral environments. Significant UK defense industry and 
NATO participation is anticipated, and this will be an opportunity for 
the Navy to conduct testing with our international partners.
    Mr. Wilson. You mentioned in your testimony that the Army will be 
continuing work to increase the capabilities offered as part of the 
Autonomous Mobility Applique Systems (AMAS) Joint Concept Technology 
Demonstration and addressing some of the technology gaps in autonomous 
convoy resupply. What are some of those gaps as you see them?
    Dr. Bornstein. The AMAS JCTD, and subsequent demonstrations, 
focused upon an incremental approach for the creation of a ``fail-safe 
architecture'' that would permit the reduction of crew size from two 
Soldiers to a single individual. In effect, this program was utilizing 
technology to create driver's aids analogous to the safety features 
that are now beginning to appear in both private and commercial 
vehicles. While having direct benefits, especially under tactical 
situations, significant technology gaps exist that prevent immediate 
deployment of autonomous vehicles. These gaps include the development 
of an appropriate software architecture, algorithms for perception and 
vehicle behaviors, and the integration of those algorithms into the 
software architecture so that they can operate in real time, i.e., 
permitting vehicles to operate at appropriate tactical speeds. Some of 
the required technology will benefit from research and development 
activities currently being conducted in the private sector, e.g., 
Google and others. However, Google and others are depending on robust 
wireless networks to support their applications. Unfortunately, these 
networks may not be available in the dynamic and complex tactical 
environments the Army may be working which creates additional 
challenges.
    Mr. Wilson. In dealing with test, evaluation, validation and 
verification, how are you working with the Test Resource Management 
Center to better understand where investments are needed for testing 
infrastructure, as well as where changes to the test ``process'' might 
be needed?
    Dr. Bornstein. The OSD Autonomy Community of Interest (COI) has 
recognized that the test and evaluation/validation and verification 
(T&E/V&V) of future intelligent systems that incorporate learning 
leading to emergent behaviors is critical to future employment of 
systems incorporating this technology. It therefore created the T&E/V&V 
working group. Since the COI is a ``grass roots'' organization that 
incorporates all individuals with common interests, it has worked hand-
in-hand with the Test Resource Management Center (TRMC) Unmanned and 
Autonomous System Test (UAST) program in furthering common goals. 
Members of the T&E/V&V working group are part of the UAST working 
group, while members of the UAST, including the executing agent, 
participate in the Autonomy COI T&E/V&V effort.
    The functions that the T&E/V&V working group set for itself are to 
foster community collaboration; develop an S&T strategic roadmap, 
including an assessment of current autonomy T&E and V&V standards, 
procedures, infrastructure, and capabilities; identify gaps where those 
capabilities, infrastructure, and policy are misaligned or deficient; 
coordinate with Major Range Test and Facility Base (MRTFB) to produce a 
database baseline of T&E infrastructure; and support standards 
development unique to the V&V of autonomous systems.
    The working group has established five goals: (1) creation of 
methods and tools assisting in T&E/V&V requirements development and 
analysis, (2) further adoption of evidence-based design and 
implementation, (3) employment of cumulative evidence through the 
research and development, test and evaluation, developmental testing, 
and operational testing phases of system life cycle, (4) adoption of 
methods for run-time behavior prediction and recovery, and (5) 
development of assurance arguments for autonomous systems. The working 
group has established a charter, published an investment strategy, and 
developed a strategic roadmap. The working group has presented its 
investment strategy to the UAST and each group has presented its 
projects to the other group. The Autonomy COI is directly supporting 
the ongoing TRMC sponsored T&E study administered by the Georgia Tech 
Research Institute. The study's objective is to evaluate the adoption 
of a pedigree-based licensure paradigm, vice certification, for future 
autonomous systems.
    Mr. Wilson. What opportunities exist to conduct testing or 
experimentation with our international partners, including 
international non-governmental organizations?
    Dr. Bornstein. The Department of Defense (DOD), through the 
Services or jointly through the Office of the Secretary of Defense 
(OSD), maintains a robust set of relations with international partners 
under established cooperative research, development, testing and 
evaluation bilateral or multilateral agreements. On the topic of 
robotics, the Army maintains agreements with Australia, Canada, France, 
Germany, Israel, Japan, Korea, and the United Kingdom. In past years, 
the Army conducted a joint competition with the Australian Defense 
Science and Technology Office specifically focused on small autonomous 
ground robotic vehicles conducting intelligence, surveillance, and 
reconnaissance (ISR) missions in complex environments; the final 
competition was held in Adelaide, Australia. Over the course of the 
next few months, Army personnel are scheduled to visit their government 
counterparts in France and Israel to discuss specific collaborative 
research opportunities in robotics, autonomy and unmanned vehicles. The 
Army is also conducting exploratory discussions in the area of robotics 
with potential new partners, such as India and Singapore. Over the past 
18 months, two projects have been under discussion between DOD and 
India's Center for Artificial Intelligence and Robotics (CAIR) focusing 
on ``Improving Cognitive and Artificial Cognition Models'' and ``Small 
Intelligent Autonomous System for Situational Awareness.''
    DOD researchers are actively involved in The Technical Cooperation 
Program (TTCP), a joint research collaboration among the defense 
establishments of the US, UK, Canada, Australia, and New Zealand. The 
Autonomy Strategic Challenge Group within the TTCP envisions manned and 
unmanned assets working in concert, employing autonomy technologies to 
efficiently and cost-effectively support joint coalition force 
structures. To this end, the group is developing a set of challenge 
problems to collectively advance autonomy technology.
    In addition, initiatives such as the Engineer and Scientist 
Exchange Program (ESEP) and Cooperative Research and Development 
Agreements (CRADA) offer DOD researchers the opportunity to conduct 
joint projects addressing technology gaps and interoperability 
solutions with foreign partners, either in government, academia or the 
commercial sector. Under the ESEP, U.S. Defense personnel are 
temporarily assigned to work in allied and friendly country defense 
establishments on topics of shared strategic interest. CRADAs are 
formal agreements between one or more Federal laboratories and one or 
more non-Federal parties under which the parties provide personnel, 
funds, facilities, equipment or other resources to conduct specific 
research or development efforts.
    Lastly, The Army uses two OSD programs in order to collaborate with 
foreign partners--Coalition Warfare Program (CWP) and Foreign 
Comparative Test (FCT). CWP supplements Army funding for specific 
cooperative development projects with our allies and foreign partners. 
The projects accomplish mutual research, development, and 
interoperability goals through equitable contributions from all 
partnering nations. The FCT program typically involves U.S. purchase of 
foreign materials/products in order to test and evaluate novel 
technologies.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LANGEVIN
    Mr. Langevin. All witnesses, how are you leveraging the 
Department's laboratory enterprise and academic relations for advances 
in autonomous capabilities, in addition to industry?
    Dr. Zacharias. The Air Force is leveraging the Department's 
laboratory enterprise and academic relations extensively for advances 
in autonomous capabilities. As mentioned in my written statement, the 
Air Force's primary agent for autonomy research, the Air Force Research 
Laboratory (AFRL), commissioned the development of the AFRL Science and 
Technology (S&T) Autonomy Vision and Strategy in 2013. This document 
identifies the major goals, technical challenges, and investment 
strategies needed to discover, develop, and demonstrate warfighter-
relevant autonomy S&T to maintain and enhance air, space, and 
cyberspace dominance. This strategy has been coordinated with the other 
services and with OSD through the Assistant Secretary of Defense for 
Research and Engineering's (ASD(R&E)) Autonomy Community of Interest 
(COI). My written statement also went into detail on AFRL's autonomous 
systems research and development efforts, on-going or planned. Some 
examples of how the Air Force is leveraging the laboratory include:
    <bullet> AFRL's Human Effectiveness Directorate has an ISR Analyst 
Test Bed which provides a research-representative Processing, 
Exploitation and Dissemination (PED) cell for developing interfaces and 
technologies. Outputs of this research, the Internet Relay Chat 
Coordinate Extractor (ICE) and Enhanced Reporting Narrative Event 
Streaming Tool (ERNEST), not only improve manpower efficiencies and 
reduce airman workload, but also lay the groundwork for integrated 
multi-INT autonomous processing and advance analyst cuing via 
autonomous decision-aiding.
    <bullet> The current integration of an Auto Ground Collision 
Avoidance System (Auto GCAS) into the Air Force's operational F-16 
fleet is an example of how the focus on human-machine teaming and the 
need to develop trust across the team can build acceptance of 
autonomous systems within the Air Force. The system was developed 
jointly by five organizations working closely together: AFRL; Lockheed 
Martin's Advanced Development Programs (ADP), also known as the Skunk 
Works; the Office of the Undersecretary for Personnel and Readiness; 
NASA's Armstrong Flight Research Center; and the Air Force Test Center.
    <bullet> AFRL is currently collecting proposals for a Low Cost 
Attritable Strike Unmanned Aerial System (UAS) Demonstration that will 
design, develop, assemble, and test a technical baseline for a high 
speed, long range, low cost, limited-life strike Unmanned Aerial System 
(UAS). The program will also identify key enabling technologies for 
future low cost attritable aircraft demonstrations, and provide a 
vehicle for future capability and technology demonstrations. AFRL's 
primary agent for interfacing with academia is the Air Force Office of 
Scientific Research (AFOSR) which has two primary portfolios supporting 
the advancement of autonomous capabilities: Computational Cognition and 
Machine Intelligence and Trust and Influence. The Computational 
Cognition and Machine Intelligence portfolio supports experimental 
studies and computational modeling to allow autonomous systems and 
mixed human-agent teams to achieve human-level performance with minimal 
interaction and provide warfighters with decision-making support in 
C4ISR environments. Examples of projects funded by this portfolio 
include ``Neurocognitive Information Processing'' with Columbia 
University, ``Circuit Models for Robust, Adaptive Neural Control'' with 
Tulsa University, and ``Making and Keeping Informed Commitments in 
Human-Machine Systems'' with the University of Michigan.
    The Trust and Influence portfolio explores the sciences of reliance 
(how do humans establish, maintain, and repair trust, in others and in 
autonomous systems) and influence (how to shape the behavior, 
attitudes, or beliefs of others). Examples of projects funded by this 
portfolio include ``Stochastic Logical Reasoning for Autonomous Mission 
Planning'' with Rensselaer Polytechnic Institute (RPI) and ``Findings 
on Universal, Cross-Cultural Linguistic Features Associated with 
Veracity and Deception'' with San Francisco State University.
    Additionally, AFOSR has several portfolios with grants that are 
directly applicable to autonomy. The Human Performance and Biosystems 
portfolio has several grants on autonomy-related topics to include a 
Center of Excellence named the Nature Inspired Sciences Flight 
Technologies and Ideas (NIFTI). A Center of Excellence is a 5-year 
program where an AFRL Technical Directorate partners with AFOSR to co-
fund a university or group of universities to develop a particular area 
of science that the lab wants to eventually internalize. This 
particular Center is at the University of Washington, but also includes 
Maryland, Case Western Reserve, and Johns Hopkins Universities. There 
is also a Partnership Agreement with the United Kingdom entitled 
``Biologically Inspired Technologies for Unmanned Autonomous Systems.''
    The Computational Mathematics and Optimization portfolios have 
funded several tasks with the key-words of ``autonomous decision'', 
``automated routing'', ``autonomous navigation'', ``automatic task 
assignment'', and ``flocking''. From 2010 on, AFOSR has made between 
$4M and $5M investment towards these topics. This includes a $500K/year 
``lab-task'' (a 5-year award) to AFRL's Munitions Directorate which 
operates as a Center of Excellence with multiple tasks performed by the 
University of Florida and collaborators. The scope of work of the 
Mathematical Modeling and Optimization Institute (MMOI) is varied and 
was recently reviewed by the Air Force's Scientific Advisory Board with 
positive feedback.
    Mr. Langevin. All witnesses, have you received guidance or 
direction on advancing autonomous capabilities as part of the Third 
Offset Strategy?
    Dr. Zacharias. The Air Force has not as of yet received official 
guidance or direction on advancing autonomous capabilities as part of 
the Third Offset Strategy but is posturing itself to be responsive to 
any provided guidance and/or direction from the Office of the Secretary 
of Defense.
    In a recent speech at the Reagan Defense Forum, Deputy Secretary of 
Defense Bob Work stated that the ``big idea'' behind the Third Offset 
Strategy was ``human-machine collaboration and combat teaming.'' \1\ He 
then said that this realization came from two major efforts: the Long 
Range Research and Development Planning Program (LRRDPP) and the 2015 
Defense Science Board summer study on autonomy.
---------------------------------------------------------------------------
    \1\ ``Reagan Defense Forum: The Third Offset Strategy,'' As 
Delivered by Deputy Secretary of Defense Bob Work, Reagan Presidential 
Library, Simi Valley, CA, November 7, 2015
---------------------------------------------------------------------------
    The AF was involved in LRRDPP over the last calendar year and is 
currently awaiting guidance on what portions of the program to 
implement. In his FY18 Air Force Science and Technology (S&T) 
Programming Guidance (dated 27 Oct 2015), the Assistant Secretary of 
the Air Force (Acquisition), Dr. William LaPlante, directed AFRL to 
place emphasis on the LRRDPP as detailed in the FY17-21 Defense 
Planning Guidance as it builds its FY18 budget input for its S&T 
Program.
    Based on AFRL's extensive portfolio for advancing autonomous 
capabilities, as discussed in my written statement, I do not expect 
that supporting LRRDPP recommendations will require significant changes 
to existing programs.
    Mr. Langevin. All witnesses, to what extent are you exploring 
autonomy in cyber capabilities?
    Dr. Zacharias. AFRL is exploring autonomy primarily for defensive 
cyber capabilities. The two main efforts are the Autonomous Defensive 
Cyber Operations program and the Cyber Grand Challenge (in 
collaboration with DARPA), both of which are described below. 
Additionally, we are beginning to apply machine learning capabilities 
to the Command and Control (C2) cycle, allowing for multi-domain C2 to 
occur across air, space, and cyberspace operations by having systems 
make recommendations based off prior experience throughout the 
planning, targeting, weaponeering, tasking, and assessment process.
    We are moving from ``man in-the-loop'' to ``man on-the-loop'' and 
allowing computers to carry out more of the workload, which provides 
the potential to increase current decision-loop speed and quality. 
Currently, effective cyber operations require that human operators make 
complex decisions from massive amounts of data in near real time. 
Incorrect decisions can arise from an operator missing a piece of 
information. Correct conclusions may be reached manually, but if they 
are not acted on in a certain timeframe (milliseconds or less), they 
may not deliver the intended effect. Simply put, outpacing the decision 
cycle of an adversary requires machine speeds. The Autonomous Defensive 
Cyber Operations (ADCO) program's goal is to research approaches and 
technologies to create force multipliers for cyber operations through 
the use of machine learning and artificial intelligence. The team is 
developing and demonstrating proofs of concept that integrate machine 
leaning and artificial intelligence into defensive cyber operations 
processes for the purposes of reducing the manual burden on Cyber 
Protection Teams (CPTs). These proofs of concept will be used to assess 
the effectiveness in these approaches, to understand the level of 
confidence in autonomous defensive systems, and to identify legal and 
policy challenges that must be overcome for the successful integration 
of autonomy into defensive cyber operations. The Cyber Grand Challenge 
(CGC) program requires teams to build fully automated systems that can 
find vulnerabilities in software, prove that they have found the 
vulnerability by synthesizing an input that will trigger the 
vulnerability, patch and nullify the vulnerability with acceptable 
performance overheads, and incorporate game theory to win a competition 
where these machines are competing against each other.
    The CGC's Qualification Event took place in June of 2015 with the 
following highlights:
    1.  Machines can find, prove, and fix almost all of the vulnerable 
programs in the test space.
    2.  Most vulnerabilities were patched within the first two hours of 
the 24-hour competition. The machines found unintended vulnerabilities 
that evaded even the software's authors without the need for source 
code or debug symbols.
    AFRL was involved in all aspects of the Qualification Event, but 
specifically led the infrastructure design and post mortem analysis of 
submissions. The machine versus machine competition will take place in 
August of 2016.
    Mr. Langevin. All witnesses, how are you leveraging the 
Department's laboratory enterprise and academic relations for advances 
in autonomous capabilities, in addition to industry?
    Mr. Kelley. The Navy has a long history of advancing autonomous 
Naval warfighting capabilities across all domains: air, ground, sea, 
space, and cyber space. However, as the rate of change in the global 
environment accelerates and the landscape of potential threats shifts 
more rapidly than ever before, the DON recognizes that we must 
accelerate the adoption of technological advances, to include 
autonomous capabilities. To accelerate the development and Fleet 
introduction of unmanned systems, the Department of the Navy recently 
established the Deputy Assistant Secretary of the Navy for Unmanned 
Systems (DASN (UxS)) and the Director, Unmanned Warfare Systems 
Division (OPNAV N99). OPNAV N99, working closely with DASN (UxS), are 
the Navy's innovation leaders to get emerging unmanned systems and 
related capabilities to the Fleet quickly. Additionally, the Department 
of the Navy (DON) has recently established the Naval Rapid Prototyping, 
Experimentation, and Demonstration Office, within Deputy Assistant 
Secretary of the Navy for Research, Development, Test and Evaluation 
(DASN (RDT&E)). In this role, DASN (RDT&E) has been given authority to 
leverage the Naval Science and Technology (S&T) community, the Naval 
Research and Development Establishment (NR&DE), and our talented 
Sailors and Marines.
    The Navy also plans on leveraging its established business 
processes and contracting vehicles to reach out to industry and 
academia (including University-Affiliated Research Centers and 
Federally Funded Research Centers). These processes are in place 
through a variety of organizations such SYSCOMs, PEOs, and Warfare 
Centers among others.
    OPNAV N99, in coordination with DASN (UxS), is developing an 
unmanned system autonomy strategy focused on a common, multi-domain 
autonomy architecture which will leverage many of the autonomy 
developments to date. The goal is to capitalize on these individual 
system developments to form a more complete, modular system that is 
capable of operating on not just a single system, but rather across 
systems and across domains. With the increasing numbers of expected 
unmanned systems coming in the future years, this is a sustainable 
method for autonomy development.
    Mr. Langevin. All witnesses, have you received guidance or 
direction on advancing autonomous capabilities as part of the Third 
Offset Strategy?
    Mr. Kelley. The Navy is aware of the key role of autonomous 
capabilities as part of the Third Offset Strategy. The Navy has been 
advancing autonomous capabilities for several years through science and 
technology investments and our unmanned system programs. The Navy will 
continue to identify how we can further advance these capabilities and 
rapidly introduce them to the Fleet in order to achieve the Third 
Offset Strategy.
    Mr. Langevin. All witnesses, to what extent are you exploring 
autonomy in cyber capabilities?
    Mr. Kelley. Adversarial cyber interaction occurs at a speed beyond 
what human can comprehend. The complexity and internal operating speed 
of cyber systems are many orders of magnitude beyond what human 
operator can timely observe, comprehend and response, resulting in the 
defender total reliance to forensic (after the fact) process, which may 
result in significant damage and expensive recovery.
    Full autonomy in cyber space is a long term goal of the Navy's 
cyber security research at ONR for both the computing devices and the 
networking infrastructure. By full autonomy, we mean a system that 
closes the loop of sensing, analyzing, planning and taking action at 
cyber speed. Autonomic cyber systems employ machine-situational 
awareness and advanced machine reasoning to understand their operating 
status and environment, plan for actions, mitigate and inoculate 
against cyber exploits.
    For near and mid-term, we are developing technologies for 
automating sensing, analysis and recommending plans for actions to 
human operator.
    Mr. Langevin. All witnesses, how are you leveraging the 
Department's laboratory enterprise and academic relations for advances 
in autonomous capabilities, in addition to industry?
    Dr. Bornstein. The U.S. Army Research Development and Engineering 
Command's (RDECOM) Army Research Lab's (ARL) Open Campus is a 
collaborative business model, with the goal of building a science and 
technology ecosystem that will support groundbreaking advances in basic 
and applied research areas of relevance to the Army. The global 
academic community, industry, small businesses, and other government 
laboratories benefit from this collaboration with ARL's specialized 
research staff and unique technical facilities. These collaborations 
will build research networks, explore complex and singular problems, 
enable self-forming expertise-driven team building that will be well-
positioned for competitive research opportunities, and expose 
scientists, engineers, including professors and students, to realistic 
research applications and perspectives. Specific to autonomous 
capabilities research, ARL's campus features a 9,800 square foot Urban 
Experimental Facility for autonomous systems and sensing.
    The tools available to aid the laboratory in its collaborative 
business model through Open Campus include Educational Partnership 
Agreements (EPAs) and Cooperative Research and Development Agreements 
(CRADAs).
    EPAs are used to encourage and enhance education and research 
opportunities with academia in science, technology, engineering and 
mathematics disciplines relevant to ARL science and technology 
programs. Under EPAs, visiting students have access to world-class 
research facilities and are able to work side-by-side with subject-
matter experts in their fields of interest. In turn, ARL is able to 
increase the awareness and visibility of technologies developed by the 
military and to encourage and enhance study in scientific disciplines 
at all levels of education.
    CRADAs provide an easy way to collaborate with ARL. A CRADA is a 
formal agreement between one or more Federal laboratories and one or 
more non-Federal parties under which the Government, through its 
laboratories, provides personnel, facilities, equipment or other 
resources with or without reimbursement (but not funds to non-Federal 
parties). The non-Federal parties provide personnel, funds, services, 
facilities, equipment or other resources to conduct specific research 
or development efforts that are consistent with the mission of the 
laboratory.
    Mr. Langevin. All witnesses, have you received guidance or 
direction on advancing autonomous capabilities as part of the Third 
Offset Strategy?
    Dr. Bornstein. At this time, there has not been any specific 
guidance nor direction on advancing autonomous capabilities 
specifically as part of the Third Offset Strategy. However, the Army is 
leading the DOD's revolutionary approach to aviation development with 
Future Vertical Lift (FVL), an initiative to develop the next 
generation of vertical lift aircraft for the Joint Warfighter, with the 
goal of getting to low-rate production by 2030. The Army Science and 
Technology Joint Multi-Role Technology Demonstrator (JMR TD) effort 
will inform technology options and reduce risk for the FVL program of 
record. The JMR TD effort will demonstrate optionally piloted or 
autonomous flight capabilities. The Army is also involved in manned-
unmanned teaming efforts such as flying AH-64 Apache helicopters 
together with Gray Eagle and Shadow UAVs as, effectively, remotely 
controlled extensions of the manned Apache's onboard sensors.
    Mr. Langevin. All witnesses, to what extent are you exploring 
autonomy in cyber capabilities?
    Dr. Bornstein. The Army is conducting R&D efforts on a number of 
topics that will help enhance autonomous capabilities of cyber 
technologies, such as autonomous agents operating on the network to 
detect, mitigate, and prevent cyber threats. These efforts include the 
following:
    <bullet>  Research on unsupervised learning for detection of cyber 
compromises, particularly relevant to autonomous systems that operate 
for a relatively prolonged time under cyber threats and possibly with 
limited opportunities for human intervention.
    <bullet>  Research on ``light-weight'' cyber intrusion detection 
agents, which can be deployed on platforms with constrained 
computational power.
    <bullet>  Research on autonomous self-patching of cyber 
vulnerabilities as they are uncovered, especially on mobile tactical 
devices.
    <bullet>  Research on agile (and largely autonomous) 
reconfiguration of networks and entities on the networks, to minimize 
exposure to cyber threats or contain an already inflicted cyber damage.
    <bullet>  Development of algorithms that can map cyber threat to 
mission impact to provide traceability between intruder actions and 
Brigade Combat Team (BCT) networks and autonomy enabled platforms.
    <bullet>  Development of correlation algorithms to fuse defensive 
cyber, spectrum awareness, offensive cyber, and network awareness 
information to enable BCT analysts to perform internal hunt activities 
in an incident friendly environment.
    The Army is also assessing the impact of the cyber threat to future 
autonomous systems; developing cyber behavior monitoring models/
techniques for tactical radio waveforms to enable anomalous behavior 
detection; developing trusted authentication techniques that do not 
rely on reach-back to centralized authorities; conducting research to 
track data flows, monitor data modification, and ensure trusted 
pedigree of information across the tactical network; and researching 
cyber containerization techniques to block and restrict the spread of 
malware on tactical mission platforms.

                                  [all]
</pre></body></html>
